OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
INTERNALLY DISPLACED
PERSONS ACTIVITIES IN IRAQ
AUDIT REPORT NO. E-267-10-001-P
MARCH 31, 2010




BAGHDAD, IRAQ
Office of Inspector General


March 31, 2010

MEMORANDUM

TO:                  Acting Director, USAID Office of Foreign Disaster and Assistance, Carol Chan

FROM:                Director, Office of Inspector General/Iraq, Lloyd J. Miller /s/

SUBJECT:             Audit of USAID’s Internally Displaced Persons Activities in Iraq
                     (Report No. E-267-10-001-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report in finalizing the audit report and have included your response
in appendix II of the report.

The report contains 12 recommendations for your corrective action. On the basis of your written
comments, in which you described actions taken or initiated to address our concerns, we
consider that both a management decision and final action have been taken on
recommendation 7 and that management decisions have been reached on recommendations 1
and 6. Management comments were withheld on recommendations 2, 3, 4, and 5 because of
an ongoing investigation and, therefore, no management decisions were reached on these
recommendations. Finally, management disagreed with recommendations 8, 9, 10, 11, and 12,
commenting that action had been completed. We differ with this assessment and conclude that
the recommendations continue to require action. Consequently, no management decisions
have been reached on recommendations 8, 9, 10, 11, and 12. Determination of final action will
be made by the Audit Performance and Compliance Division upon completion of the planned
corrective actions.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
OIG/IRAQ
APO, AE 09316
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 4

     Audit Objective ............................................................................................................ 5

Audit Findings ................................................................................................................. 6

Are USAID’s Office of Foreign Disaster Assistance’s internally displaced persons and
vulnerable population activities achieving their main goals to save lives, alleviate human
suffering, and reduce the social and economic impact of humanitarian emergencies?........ 6

     OFDA Needs To Strengthen Monitoring
     of Its Partners’ Performance ....................................................................................... 7

     OFDA Needs To Provide Clear
     Guidance for Reporting on Beneficiaries .................................................................... 9

     Unauthorized Commitments Need To Be Ratified .................................................... 12

     OFDA Did Not Address a Prior OIG Audit Recommendation.................................... 14

Evaluation of Management Comments ....................................................................... 16

Appendix I—Scope and Methodology......................................................................... 18

Appendix II—Management Comments........................................................................ 20
SUMMARY OF RESULTS
Sectarian violence has led to the most significant wave of displacement in Iraq’s history,
prompting more than 1.6 million people to flee their homes and bringing the total
internally displaced population in Iraq to more than 2.8 million people by late 2007. To
address their ongoing needs, USAID’s Office of Foreign Disaster Assistance (OFDA)
provided emergency assistance to these internally displaced persons and vulnerable
populations. From 2004 to 2009, OFDA awarded 14 grants and cooperative agreements
to 7 implementing partners 1 to help Iraq’s internally displaced persons meet their basic
needs. OFDA’s awards to these seven organizations during fiscal years 2007 and 2008
totaled $190 million (see page 3). Our audit reviewed 8 (of 14) awards implemented by
3 (of 7) organizations:       International Medical Corps, International Relief and
Development, Inc., and Mercy Corps. The value of their awards during fiscal years 2007
and 2008 totaled $115 million. Their expenditures during this period totaled $51million
(see pages 4–5).

OFDA’s goals are to save lives, alleviate human suffering, and reduce the social and
economic impact of humanitarian emergencies. In section 491 of the Foreign Assistance
Act of 1961, 2 congressional policy states that “prompt United States assistance to alleviate
human suffering caused by natural and manmade disasters is an important expression of
the humanitarian concern and tradition of the people of the United States.” Each of seven
OFDA awards that the audit reviewed included goals such as providing humanitarian
assistance, meeting immediate needs, improving lives, and minimizing suffering. To
implement these goals, OFDA’s awards included emergency activities that focused on
immediate needs to provide safe drinking water, sanitation facilities, primary health care,
income generation, protection and shelter, and emergency food and nonfood items
(see page 4).

For the activities reviewed, OFDA’s emergency activities, through its implementing
organizations, had achieved OFDA’s goals to save lives, alleviate human suffering, and
reduce the social and economic impact of humanitarian emergencies for the internally
displaced and vulnerable persons of Iraq. For example, International Medical Corps
provided hygiene and kitchen-utensil sets in Kerbala; constructed two restrooms,
reconstructed external fences, and repaired electrical and lighting systems at two
schools in Baghdad; and drilled three wells and installed pumps and a water tank in
Dwazda Hawar. International Relief and Development provided a vocational training
course in plumbing in Kirkuk; provided nonfood kits for families in Kirkuk (including
mattresses, blankets, soap, towels, mats, and jerry cans); and repaired leaks in water
networks in Kirkuk. Mercy Corps constructed an annex for the Khaniqin Health Center in
Diyala; renovated the Pibaz water system in Sulaymaniyah; and refurbished restrooms
in 12 schools in Diyala (see page 6).




1
  The emergency activities were implemented by International Medical Corps, International
Organization for Migration, Mercy Corps, International Relief and Development, Inc., Agency for
Technical Cooperation and Development, and two U.N. agencies.
2
  See 22 U.S.C. 2292.



                                                                                             1
Although OFDA’s partners had completed 66 of 73 activities reviewed (90 percent),
several issues require OFDA’s attention:

      For four activities, anomalies in signatures and fingerprints submitted as
       evidence of payments to beneficiaries indicated that they may have been
       falsified. As a result, we questioned $766,490 in costs incurred for these
       activities.   In one case, the support for beneficiary claims for an
       income-generating trash removal activity included different beneficiary signatures
       on vouchers for the same individuals on different days. Additional problems
       occurred with the distribution of nonfood kits. In one activity, the same five
       fingerprints were repeated 436 times to seem as if 436 different individuals
       had received services.     This fingerprint evidence contradicted supporting
       documentation of photos that showed many individuals, including men,
       women, and older children, providing fingerprints to indicate they had received
       these kits. Two other activities also contained suspiciously similar fingerprints.
       Each of the suspicious activities was referred to OIG’s Office of Investigations
       (see pages 7–9).

      OFDA’s partners reported 33.7 million beneficiaries as a result of their activities.
       This figure overstated the population of Iraq by 3 million individuals. In one case,
       262,482 individuals reportedly had benefited from the purchase of medical supplies
       meant to treat only 100 victims of a specific attack. In another case, 280,000
       beneficiaries were reported for a $14,246 activity to rehabilitate a morgue
       (see pages 9–11).

      Although lacking properly delegated authority, OFDA personnel extended five of
       seven awards beyond the existing award completion dates (see pages 12–14).

      Although OFDA agreed to implement the recommendations from our July 2007
       OIG audit report on OFDA’s Iraq activities, its actions were neither timely nor
       sufficient. Final action on one recommendation, to formally designate agreement
       officer’s technical representatives to manage OFDA’s awards, began in July
       2008—12 months after our report was issued. Had OFDA taken action earlier,
       $10 million in unauthorized commitments could have been prevented. In regard
       to the second recommendation, which related to ensuring that performance data
       provided by implementing partners was supported by documentation, OFDA’s
       actions did not sufficiently address the audit recommendation (see pages 14–15).

This audit report contains 12 recommendations to address the above issues.
Specifically, OFDA needs to

      Establish and implement a plan to provide performance monitoring and oversight
       for its awards in Iraq (see page 8).

      Determine the allowability of $766,490 in questioned costs (see page 9).

      Provide clear guidance on how to count beneficiaries (see page 11).




                                                                                         2
      Perform an immediate review of its portfolio of awards in Iraq and ensure that
       each award has a designated agreement officer’s technical representative
       (see page 13).

      Ask the Director, Office of Acquisition and Assistance, to ratify $10 million in
       unauthorized commitments (see page 14).

In response to our draft audit report and its 12 recommendations, OFDA indicated
acceptance of 2 recommendations, did not respond to 4 recommendations, and
disagreed with 6 recommendations. Specifically, OFDA

      Agreed to establish and implement a plan to provide performance monitoring and
       oversight for its awards in Iraq. The actions included standardized program
       reporting guidance, requirements for implementing partners to periodically report
       on the progress of program activities and performance, development of standard
       reporting indicators, development of a Web-based online database system to
       improve results data, and the development of third-party services to provide field
       monitoring and evaluation.

      Did not determine the allowability of $766,490 in questioned costs from 4
       recommendations due to an ongoing investigation.

      Agreed to provide clear guidance on how to count beneficiaries.

      Although disagreeing with the recommendation, nevertheless performed a review
       of its portfolio of awards in Iraq and ensured that each award had a designated
       agreement officer’s technical representative.

      Disagreed to ask the Director, Office of Acquisition and Assistance, to ratify $10
       million in unauthorized commitments, from 5 recommendations. The basis for
       disagreeing with the recommendations was that a designated agreement officer
       technical representative had approved the no-cost extensions and that it was
       within the agreement officer technical representative’s authority to do so.
       However, OFDA has yet to provide support that the specific individuals who
       approved the no-cost extensions of the grants were officially designated in writing
       as the agreement officer technical representatives for the five grants. Without
       such evidence, the individuals who authorized the extensions of the awards did
       not have the authority do so; these actions must be ratified by the Director, Office
       of Acquisition and Assistance.

On the basis of the management comments, we consider that final action has occurred
on one recommendation, management decisions have been reached on two additional
recommendations, and management decisions have not been reached on nine
recommendations (see pages 16-17).

Management comments are included in their entirety in appendix II.




                                                                                         3
BACKGROUND
Iraq’s internally displaced people, as well as other vulnerable nationals, need
humanitarian assistance urgently. The February 2006 bombing of the Al-Askari mosque
in Samarra and the ensuing sectarian violence led to the most significant wave of
displacement in Iraq’s history, prompting more than 1.6 million people to flee their homes
and bringing the total internally displaced population in Iraq to more than 2.8 million
people by late 2007. The nature and patterns of displacement and vulnerability in Iraq
require significant responses, the most important being to provide immediate
humanitarian assistance in response to recent displacement, deteriorating security, and
lack of access to basic services.

According to the 2008 annual report of USAID’s Office of Foreign Disaster Assistance,
OFDA’s goals are to save lives, alleviate human suffering, and reduce the social and
economic impact of humanitarian emergencies. In section 491 of the Foreign Assistance
Act of 1961, 3 congressional policy states that “the Congress, recognizing that prompt
United States assistance to alleviate human suffering caused by natural and manmade
disasters is an important expression of the humanitarian concern and tradition of the people
of the United States, affirms the willingness of the United States to provide assistance for
the relief and rehabilitation of people and countries affected by such disasters.” Consistent
with this policy, each of seven OFDA awards that the audit reviewed included goals such
as providing humanitarian assistance, meeting immediate needs, and improving lives and
minimizing suffering. To implement these goals, these awards included emergency
activities to provide safe drinking water, sanitation facilities, primary health care, income
generation, protection and shelter, and emergency food and nonfood items.

OFDA is responsible for facilitating and coordinating U.S. Government emergency
assistance overseas. In a report on foreign aid, OFDA characterized the Iraq conflict as
a complex humanitarian emergency characterized by internal conflicts with large-scale
displacement of people; fragile or failing political, economic, and social institutions;
random and systematic violence against noncombatants; infrastructure collapse;
widespread lawlessness; and interrupted food production and trade. 4 To address the
emergency assistance needs in Iraq, OFDA, through its agreement officer in
Washington, DC, provided 14 grants and cooperative agreements with 7 implementing
partners to help Iraq’s internally displaced people meet their basic needs. As illustrated in
table 1, OFDA’s awards to these seven organizations during fiscal years 2007 and 2008
totaled $190 million.




3
 See 22 U.S.C. 2292.
4
  USAID, Foreign Aid in the National Interest: Promoting Freedom, Security, and Opportunity,
chapter 5, 2002.



                                                                                           4
  Table 1. OFDA Implementers and Active Awards During FY 2007 and FY 2008

                                                                           Award Value
                              Implementer
                                                                               ($)
 International Medical Corps
     2 grants and 1 cooperative agreement                                      43 million
     (December 2004–August 2009)
 International Organization for Migration
     2 grants                                                                  38 million
     (March 2003–June 2009)
 Mercy Corps
     2 grants and 1 cooperative agreement                                      38 million
     (December 2004–June 2009)
 International Relief and Development, Inc.
     2 grants                                                                  34 million
     (January 2005–June 2009)
 Agency for Technical Cooperation and Development
     2 grants                                                                  19 million
     (June 2005–June 2009)
 United Nations Children’s Fund
     1 grant                                                                   16 million
     (June 2008–December 2009)
 United Nations Office for the Coordination of Humanitarian Affairs
     1 grant                                                                    2 million
     (September 2008–August 2009)
                                                                   Total     190 million

Our audit focused on eight awards implemented by three implementing partners:
International Medical Corps, International Relief and Development, Inc., and Mercy
Corps. The value of their awards during fiscal years 2007 and 2008 totaled $115 million.
Their expenditures during this period totaled $51 million.


AUDIT OBJECTIVE
As part of its fiscal year 2009 annual audit plan, the Office of Inspector General in Iraq
conducted this audit to answer the following question:

      Are USAID’s Office of Foreign Disaster Assistance’s internally displaced persons
       and vulnerable population activities achieving their main goals to save lives,
       alleviate human suffering, and reduce the social and economic impact of
       humanitarian emergencies?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        5
AUDIT FINDINGS
For the activities reviewed, USAID’s Office of Foreign Disaster Assistance’s (OFDA)
internally displaced persons and vulnerable population activities in Iraq achieved OFDA’s
goals to save lives, alleviate human suffering, and reduce the social and economic impact
of humanitarian emergencies. Through its implementing partners, OFDA completed
emergency activities including water and sanitation, income generation, commodity
distribution, health care, and protection and shelter activities. Examples of completed
activities included the following:

      International Medical Corps provided hygiene and kitchen-utensil sets in Kerbala;
       constructed two restrooms, reconstructed external fences, and repaired electrical
       and lighting systems at two schools in Baghdad; and drilled three wells and
       installed pumps and a water tank in Dwazda Hawar.

      International Relief and Development provided a vocational training course in
       plumbing in Kirkuk; provided nonfood kits for families in Kirkuk (including
       mattresses, blankets, soap, towels, mats, and jerry cans); and repaired leaks in
       water networks in Kirkuk.

      Mercy Corps constructed an annex for the Khaniqin Health Center in Diyala;
       renovated the Pibaz water system in Sulaymaniyah; and refurbished restrooms in
       12 schools in Diyala.

Although OFDA’s partners had completed 66 of 73 activities reviewed (90 percent),
several issues require OFDA’s attention:

      For four activities, anomalies in signatures and fingerprints submitted as
       evidence of payments to beneficiaries indicated that they may have been
       falsified. For example, in one activity the same five fingerprints were repeated
       436 times to seem as if 436 different individuals had received services. As a
       result, we questioned $766,490 in costs incurred for these four activities.

      OFDA’s implementing partners collectively reported 33.7 million beneficiaries as
       a result of their activities. This figure overstated the population of Iraq by 3 million
       individuals. In this case, 262,482 individuals reportedly had benefited from the
       purchase of medical supplies meant to treat only 100 victims of a specific attack. In
       another case, 280,000 beneficiaries had been reported for a $14,246 activity to
       rehabilitate a morgue.

      Although lacking properly delegated authority, OFDA personnel extended five of
       seven awards beyond the existing award completion dates.




                                                                                             6
        Although OFDA had agreed to implement the recommendations from our July
         2007 OIG audit report 5 on OFDA’s Iraq activities, its actions were neither timely
         nor sufficient. Final action on one recommendation, to formally designate
         agreement officer’s technical representatives (AOTRs) to manage OFDA’s
         awards, began in July 2008—12 months after our report had been issued. Had
         OFDA taken action earlier, $10 million in unauthorized commitments could have
         been prevented. In regard to the second recommendation, which related to
         ensuring that performance data provided by implementing partners was
         supported by documentation, OFDA’s actions did not sufficiently address the
         audit recommendation.

The following narrative provides additional details on these findings and includes
recommendations to strengthen OFDA’s activities to improve the livelihood of internally
displaced and vulnerable persons in Iraq.

OFDA Needs To Strengthen Monitoring
of Its Partners’ Performance
    Summary. According to USAID’s Automated Directives System, chapter 303.3.17,
    responsibilities for administering grants and cooperative agreements include
    reviewing and analyzing performance reports, performing site visits, or other
    appropriate means. However, OFDA officials did not review or analyze partner
    performance reports, nor did they carry out their oversight responsibilities to ensure
    that the reported number of beneficiaries was accurate. Instead, OFDA officials
    largely relied on their partners to ensure that the activities were undertaken
    diligently. Consequently, we found indications of possible fraud, which led us to
    question $766,490 in costs incurred by OFDA’s partners, as well as numerous
    documentation issues with the number of reported beneficiaries for 35 of 73 tested
    activities. The level of unsubstantiated claims, as well as the possible fraud,
    diminished the validity, credibility, and usefulness of the performance results
    identified in the reports.

USAID’s Automated Directives System (ADS), chapter 303.3.17, addresses the
administration of grants and cooperative agreements and advises that administration
responsibilities may include reviewing and analyzing performance reports, performing
site visits, and substantial involvement by USAID in a cooperative agreement. ADS
303.3.17(b) states that site visits are an important part of effective award management
because they usually allow a more effective review of the project.

Despite the importance placed on reviewing and analyzing performance reports, OFDA
officials did not formally review their partners’ performance reports as part of their award
administration responsibilities. Instead, when asked about OFDA’s procedures to
monitor implementing partners’ efforts, more than one official commented that OFDA
largely relied on the reputation of the partners to ensure that the prescribed activities had
been undertaken diligently. Because the OFDA officials responsible for program
monitoring are based in Washington, DC, their oversight was further weakened.

5
  USAID/Office of Inspector General, “Audit of the Office of Foreign Disaster Assistance Program
in Iraq,” Audit Report No. E-267-07-006-P, July 11, 2007.



                                                                                              7
In addition, although OFDA had agreed to implement the recommendations from our
July 2007 audit report on the office’s Iraq activities, OFDA’s actions were insufficient to
ensure that performance data provided by implementing partners was supported by
documentation (recommendation 2). Partners used their own discretion to determine
who had benefited from their programs, and numerous documentation issues had
occurred with the number of reported beneficiaries for 35 of 73 tested activities.

For example, the support for beneficiary claims reported by International Medical Corps
for an income-generating trash removal activity 6 included different beneficiary signatures
on vouchers for the same individuals on different days. Because of the dubious validity
of the signatures on the vouchers, we question the $46,980 expended for the activities.

More problems occurred with the distribution of nonfood kits.            Of five tested
relief-commodity activities selected from Mercy Corps—which used fingerprints to
document recipients—in one activity 7 the same five fingerprints were repeated 436 times
to seem as if 436 different individuals had received services. This fingerprint evidence
contradicted the activity’s supporting documentation, which consisted of photos showing
many individuals, including men, women, and older children, providing fingerprints to
indicate that they had received these kits. Consequently, we question the $168,080
expended on the activity.

The other four Mercy Corps relief-commodities activities selected for testing included two
activities, worth $373,021 8 and $178,409, 9 that also contained suspiciously similar
fingerprints. Consequently, we also question the amounts spent on these two activities.
Each of the suspicious activities has been referred to OIG’s Office of Investigations.

In another case, Mercy Corps reported 120 beneficiaries for a cancelled vocational
training activity in Erbil. A Mercy Corps official said the training was to take place in a
training center being built by South Korea, but the center had not been finished during
the period in which the training was to occur.

By not following up on partners’ activities or verifying their reported numbers of
beneficiaries, OFDA required little if any accountability for the partners’ performance.
The level of unsubstantiated claims diminished the validity, credibility, and usefulness of
the performance results identified in the implementing partners’ reports and indicate a
high risk of fraud or other irregularities occurring in the partners’ programs. To minimize
this risk, OFDA needs to provide more oversight to its awards.

    Recommendation 1. We recommend that USAID’s Office of Foreign Disaster
    Assistance establish and implement a plan for both OFDA and partner staff to
    provide performance monitoring and oversight for its awards in Iraq. Such a plan
    should include, among other actions, regular reviews of partner reports,
    compliance with award requirements, and random checks to ensure that
    implementing partners have support for claimed results.

6
  This activity occurred under implementation plan No. 11 of Award No. DFD-A-00-05-00030-00.
7
  This activity occurred under project code DY/145 of Award No. DFD-G-00-05-00027-00.
8
  This activity occurred under project code DY/161 of Award No. DFD-G-00-05-00027-00.
9
  This activity occurred under project code DY/171 of Award No. DFD-G-00-05-00027-00.



                                                                                               8
      Recommendation 2. We recommend that OFDA’s agreement officer determine
      the allowability and collect, as appropriate, the $46,980 in questioned ineligible
      costs billed by International Medical Corps for Implementation Plan No. 11 under
      Cooperative Agreement No. DFD-A-00-05-00030-00.

      Recommendation 3. We recommend that OFDA’s agreement officer determine
      the allowability and collect, as appropriate, the $168,080 in questioned ineligible
      costs billed by Mercy Corps for Project Code DY/145 under Grant No.
      DFD-G-00-05-00027-00.

      Recommendation 4. We recommend that OFDA’s agreement officer determine
      the allowability and collect, as appropriate, the $373,021 in questioned ineligible
      costs billed by Mercy Corps for Project Code DY/161 under Grant No.
      DFD-G-00-05-00027-00.

      Recommendation 5. We recommend that OFDA’s agreement officer determine
      the allowability and collect, as appropriate, the $178,409 in questioned ineligible
      costs billed by Mercy Corps for Project Code DY/171 under Grant No.
      DFD-G-00-05-00027-00.


OFDA Needs To Provide Clear
Guidance for Reporting on Beneficiaries

     Summary. OFDA’s implementing partners collectively reported 33.7 million
     beneficiaries as a result of their activities, of which 31.7 million were cumulatively
     reported by one implementing partner over the life of a single award. This figure
     overstated the population of Iraq by 3 million individuals. The error occurred because
     OFDA has not provided clear guidance to its implementing partners on how to
     calculate and report beneficiaries. Consequently, contrary to OFDA guidance and
     data quality standards contained in ADS 203, the partners reported inflated and
     misleading numbers of beneficiaries. Without accurate data, OFDA cannot obtain
     an accurate picture of the program’s accomplishments in Iraq.

International Medical Corps, International Relief and Development, and Mercy Corps
reported 33.7 million direct and indirect beneficiaries as a result of their activities during
fiscal years 2007 and 2008. Of these 33.7 million beneficiaries, 31.7 million were reported
from a single award. However, only an estimated 30.4 million individuals were living in
Iraq in 2008. 10 Consequently, despite requirements to prevent double counting of
beneficiaries, OFDA’s three partners reported having helped about 3 million individuals
more than the number of Iraqis in the country’s population. If beneficiaries included in
four awards not covered by this audit had been counted, the number of reported
beneficiaries would be even higher.




10
  According to the International Monetary Fund, the Iraqi population was estimated to be
approximately 30.4 million people during 2008.



                                                                                              9
Some examples of questionable numbers of beneficiaries reported by OFDA’s
implementing partners included the following:

      262,482 individuals reportedly benefiting from the purchase of medical supplies to
       treat only 100 victims of a specific attack

      1.5 million beneficiaries from 22 individuals attending a 5-day mental health
       course

      123,000 beneficiaries from water and well activities that did not produce potable
       water

      49,000 beneficiaries resulting from $1,200 spent to send a mobile medical unit
       out to rural villages

      “All Iraq population” reported as beneficiaries from a 2-day, $21,000 training
       course for around 50 health workers

      280,000 beneficiaries reported for spending $14,246 to rehabilitate a morgue

OFDA’s guidance, “Guidelines for Grant Proposals and Reporting,” in force when the
original Iraq grants and cooperative agreements were awarded, provides general
guidance on how partners should report performance, such as reporting actual
accomplishments against planned results, explaining why targets were not met (if
applicable), and including success stories. In October 2008, OFDA revised this
guidance under the new title, “Guidelines for Unsolicited Proposals and Reporting.” This
updated guidance (page 45) generally requires performance baseline data and a
comparison of actual accomplishments against objectives and indicators. In addition to
the above guidelines, OFDA included specific requirements in its Iraq awards for
partners to report, quarterly and annually, the number and cumulative number of
beneficiaries targeted and reached by objective. Specifically, OFDA included the
following guidance to prevent partners from double counting beneficiaries:

   Total numbers of beneficiaries targeted and reached to date (including detail as
   to whether the same beneficiary population is being served in each objective,
   e.g., number of beneficiaries targeted and reached in one objective may be
   5,000, and in another objective 5,000, but the cumulative total of beneficiaries
   reached is 5,000—not 10,000—because it is the same population targeted and
   reached in each objective).

For performance data to be useful in managing for results, USAID policy specifies that
the data should meet five data quality standards—validity, integrity, precision, reliability,
and timeliness (ADS 203.3.5.1).

Although beneficiaries should be reported accurately and not double counted, as
discussed earlier, OFDA’s partners reported that their programs had benefited about
3 million more individuals than the number of Iraqis in the country. This error occurred,
in part, because OFDA had relied on its partners instead of monitoring and verifying
reported data directly. In addition, OFDA had provided only limited guidance to the
implementing partners about how to calculate indirect beneficiaries.



                                                                                          10
A pump for a well funded by OFDA and drilled in the Al Neda neighborhood of Kirkuk.
Beneficiaries were reported for the activity, but residents said that the water was salty,
bitter, and unsuitable for drinking. (Photo taken by OIG on June 15, 2009.)

According to OFDA’s original and 2008 updated guidance (page 138), indirect
beneficiaries are defined as “members of an affected population who do not receive
direct assistance but who nonetheless benefit from assistance being given to their
relatives, neighbors, friends, or community.” However, OFDA’s partners used their own
discretion to determine who had indirectly benefited from their programs and sometimes
included entire populations. For example, one partner claimed to have implemented a
health education campaign in 20 different villages, which reportedly benefited exactly
250,000 individuals in each of the villages.

Although everyone in the worker’s city or village was potentially an indirect beneficiary,
the claims that everyone in the city had benefited from the training led to inflated and
misleading figures. Without accurate data, OFDA cannot obtain an accurate picture of
the program’s accomplishments in Iraq. Consequently, OFDA needs to issue clear
guidance to help ensure that its partners calculate the direct as well as indirect
beneficiaries of their programs uniformly, accurately, and realistically.

   Recommendation 6. We recommend that USAID’s Office of Foreign Disaster
   Assistance provide clear guidance to its implementers on how to count
   beneficiaries.



                                                                                       11
Unauthorized Commitments
Need To Be Ratified

     Summary. Title 22 of the Code of Federal Regulations allows recipients to initiate
     a one-time extension of an award for up to 12 months under certain conditions. In
     accordance with this regulation, OFDA personnel allowed five of seven awards to
     be extended after the awards’ completion dates. However, the individuals who had
     authorized the extensions did not have the authority to do so. Consequently, the
     individuals made unauthorized commitments, as defined by ADS 303.3.18, by
     allowing OFDA’s partners to continue to incur costs and to expend $10 million in
     remaining funds. The unauthorized commitments occurred because OFDA had not
     taken timely action to address a July 2007 OIG audit recommendation to formally
     designate individuals authorized to manage the awards.

The Code of Federal Regulations 11 allows a recipient to initiate a one-time extension of
the expiration date of an award for up to 12 months under certain conditions. 12
However, to do so, the recipient must notify the USAID agreements officer in writing,
with the supporting reasons and revised expiration date, at least 10 days before the
expiration date of the award. USAID included the CFR stipulation in its OFDA awards,
and each of the awards required that the agreement officer’s technical representative
(AOTR) provide written acknowledgment to the recipient for requested extensions of less
than 3 months or the representative’s written approval for extensions of 3 to 12 months.

In accordance with these requirements, OFDA personnel sent letters acknowledging
recipients’ requested 3- or 4-month extensions for five of the seven awards. However,
the individuals who had acknowledged and, thereby, authorized the extensions had not
been designated as AOTRs by OFDA’s agreement officer in Washington, DC at the time
when the extensions were improperly acknowledged. According to ADS 303.2f, this
AOTR designation must be in writing. Consequently, the AOTRs did not have authority
to extend the awards.

As shown in table 2, after receiving extensions to their awards, OFDA’s implementing
partners continued to perform work and incurred an additional $10 million in costs. The
additional amounts expended represented unauthorized commitments 13 to allow the
implementing partner to continue their operations and bill USAID for services. According
to ADS 303.3.18, only the Director, Office of Acquisition and Assistance, has the
authority to ratify unauthorized commitments.

11
   See 22 CFR 226.25(e).
12
   In particular, this one-time extension may not be exercised merely for the purpose of using
unobligated balances, and it may not be initiated if the terms and conditions of the award prohibit
the extension, if the extension requires additional Federal funds, or if the extension involves any
change in the approved objectives or scope of the project.
13
   ADS 303.3.18 states that an unauthorized commitment has occurred when a USAID official,
who does not have the authority to do so, acts in a way that leads a recipient or potential recipient
acting in good faith to believe that USAID has committed to make a specific award; change the
amount of an existing award; or revise an existing award budget, program description, or any
terms and conditions of the award.



                                                                                                  12
                    Table 2. OFDA Awards Not Properly Extended

                                                                            Expended
                                                  Improperly
 Implementing                                                                 During
                       Award Number           Authorized Extension
    Partner                                                              Extension Period
                                                     Period
                                                                                ($)
Agency for
Technical
                    DFD-G-00-05-00106-03       06/30/2008–09/30/2008               3,150,751
Cooperation and
Development
International
                    DFD-A-00-05-00030-04       03/31/2007–07/31/2007                 455,151
Medical Corps
International
                    DFD-G-00-05-00026-04       06/30/2008–09/30/2008               1,864,831
Medical Corps
International
Relief and          DFD-G-00-O5-00028-05       06/30/2008–09/30/2008               2,219,896
Development
Mercy Corps         DFD-G-00-OS-00027-04       06/30/2008–09/30/2008               2,305,033

                                                                 Total            9,995,662

The unauthorized commitments occurred primarily because OFDA had not taken timely
action to address a prior OIG audit recommendation, which had recommended that
OFDA formally designate AOTRs to administer and monitor its awards.              The
recommendation was included in a July 2007 audit report on OFDA’s programs in Iraq. 14

OFDA began issuing designation letters in July 2008—12 months after the issuance of
our report—but did not issue new AOTR designation letters for the five awards listed in
table 2, since those awards had expired or were expiring. Had OFDA taken action to
address our audit recommendation sooner, four of the five unauthorized commitments
could have been prevented.

We are not making a recommendation for OFDA to designate AOTRs for the five awards
in question, because those awards have since expired. However, we are recommending
that OFDA perform an immediate review of its current portfolio of Iraq awards to
determine whether each award, as applicable, has a designated and up-to-date AOTR.
In addition, we are recommending that OFDA prepare action memorandums to the
Director, Office of Acquisition and Assistance, requesting ratification of the $10 million in
identified unauthorized commitments.

     Recommendation 7. We recommend that the USAID Office of Foreign Disaster
     Assistance perform an immediate review of its portfolio of awards in Iraq and
     ensure that each award, as appropriate, has an up-to-date, designated
     agreement officer’s technical representative.


14
   “Audit of the Office of Foreign Disaster Assistance Program in Iraq,” OIG Audit Report
E-267-07-006-P, July 11, 2007.



                                                                                          13
   Recommendation 8. We recommend that the USAID Office of Foreign Disaster
   Assistance prepare an action memorandum to the Director, Office of Acquisition
   and Assistance, requesting the ratification of $3,150,751 in costs billed by the
   Agency for Technical Cooperation and Development during the period from
   June 30 to September 30, 2008, under Grant No. DFD-G-00-05-00106-00.

   Recommendation 9. We recommend that the USAID Office of Foreign Disaster
   Assistance prepare an action memorandum to the Director, Office of Acquisition
   and Assistance, requesting the ratification of $455,151 in costs billed by
   International Medical Corps during the period from March 31 to July 31, 2007,
   under Grant No. DFD-A-00-05-00030-00.

   Recommendation 10. We recommend that the USAID Office of Foreign
   Disaster Assistance prepare an action memorandum to the Director, Office of
   Acquisition and Assistance, requesting the ratification of $1,864,831 in costs
   billed by International Medical Corps during the period from June 30 to
   September 30, 2008, under Grant No. DFD-G-00-05-00026-00.

   Recommendation 11. We recommend that the USAID Office of Foreign
   Disaster Assistance prepare an action memorandum to the Director, Office of
   Acquisition and Assistance, requesting the ratification of $2,219,896 in costs
   billed by International Relief and Development, Inc., during the period from
   June 30 to September 30, 2008, under Grant No. DFD-G-00-05-00028-00.

   Recommendation 12. We recommend that the USAID Office of Foreign
   Disaster Assistance prepare an action memorandum to the Director, Office of
   Acquisition and Assistance, requesting the ratification of $2,305,033 in costs
   billed by Mercy Corps during the period from June 30 to September 30, 2008,
   under Grant No. DFD-G-00-05-00027-00.


OFDA Did Not Address a Prior
OIG Audit Recommendation

  Summary. In July 2007, we issued an audit report of OFDA’s activities in Iraq.
  Recommendation 1 stated: “We recommend that the USAID Office of Foreign
  Disaster Assistance develop and implement a system to ensure that performance
  data provided by its implementing partners is supported by documentation that is
  readily available.”   OFDA agreed with the recommendation and made a
  management decision to implement it. On September 30, 2008, USAID officials
  concluded that OFDA had completed final action on the July 2007 OIG audit
  recommendation. This determination of final action was largely based on the
  establishment of a projects monitoring database to document and monitor the
  performance of implementing partners. However, the establishment of a project
  monitoring database, without a process to verify that its data is supported by
  documentation, did not sufficiently address our audit recommendation.

In July 2007, we issued an audit report on OFDA’s activities to assist internally displaced
persons and vulnerable populations in Iraq.         Recommendation 1 stated: “We



                                                                                        14
recommend that the USAID Office of Foreign Disaster Assistance develop and
implement a system to ensure that performance data provided by its implementing
partners is supported by documentation that is readily available.”

When that report had been issued, OFDA agreed with the recommendation and made a
management decision to implement it. In March 2008, OFDA hired a contractor
(International Business and Technical Consultants, Inc.) to perform monitoring and data
quality activities on behalf of OFDA and to independently verify the performance of
various OFDA-funded activities in Iraq. Upon completion of its work on May 1, 2008, the
contractor issued three reports marked “draft final” and which contained a total of 31
recommendations to strengthen OFDA’s program. Four days later, on May 5, 2008,
USAID/Iraq’s Program Office issued the reports to OFDA officials for their comments on
the reports’ recommendations. However, despite repeated requests, OFDA did not
provide its comments until June 2009—1 year later. On the basis of OFDA’s comments,
the contractor finalized the reports on August 19, 2009.

Although the contractor reports were not finalized until August 2009, on September 30,
2008, OFDA prepared a memorandum requesting closure of OIG’s July 2007 audit
recommendation on the basis of (1) the contractor’s final report of findings and (2)
OFDA’s determination to establish a database to document and monitor the
performance of implementing partners. To evidence the establishment of the project-
monitoring database, OFDA attached a copy of a spreadsheet prepared by International
Medical Corps. The spreadsheet contained a description of International Medical Corps
activities, start and end dates for each activity, the cost of each activity, the number of
beneficiaries, and other information needed to monitor the activities. That same day,
USAID’s Audit Performance and Compliance Division 15 concurred with OFDA’s request
and concluded that final action had been taken on the audit recommendation.

We disagree with the conclusion of OFDA and the Audit Performance and Compliance
Division that final action had occurred on the recommendation.               First, the
project-monitoring database, which OFDA cites as having been established on the basis
of the contractor’s report, was already being implemented by one OFDA partner in April
2008—before the contractor had issued its report. Second, the establishment of a
project-monitoring database, without a process to verify that its data is supported by
documentation, did not sufficiently address our audit recommendation. For example, the
number of beneficiaries reported by OFDA’s partners in the project-monitoring database
is questionable, as discussed earlier in this report. Although OFDA did not complete
final action on the recommendation, we are not reopening it. Instead, we are making a
new recommendation, which addresses the need for OFDA to increase its monitoring of
awards in Iraq to ensure that implementing partners have support for claimed
performance results. See recommendation 1 on page 8.




15
   The Audit Performance and Compliance Division, within the Office of the Chief Financial
Officer, manages USAID's audit management and followup program, which serves as the focal
point for the analysis, tracking, and followup of OIG audits and other reports and reviews.




                                                                                        15
EVALUATION OF
MANAGEMENT COMMENTS
In its comments on the draft report and our 12 recommendations, USAID’s Office of U.S.
Foreign Disaster Assistance (OFDA) indicated acceptance of 2 recommendations, did
not respond to 4 recommendations, and disagreed with 6 recommendations. On the
basis of the management comments, we consider that both a management decision and
final action have occurred on one recommendation, management decisions have been
reached on two additional recommendations, and that management decisions have not
been reached on nine recommendations. The status of each recommendation is shown
below.
Recommendation 1. OFDA concurred with the recommendation and presented a list of
actions completed and planned to address the recommendation. OFDA planned to
complete all actions by the end of fiscal year 2010. The actions included completing
standardized program reporting guidance, completing requirements for implementing
partners to periodically report on the progress of program activities and performance,
ongoing development of standard reporting indicators for OFDA programs, ongoing
development of a Web-based online database system to improve program results data,
and the continued development of third-party services to provide field monitoring and
evaluation of program activities. On the basis of the management comments provided
by OFDA, a management decision has been reached on recommendation 1. Final
action can occur once OFDA has completed the planned actions as indicated in their
response.
Recommendations 2–5. OFDA provided no response to the four recommendations to
have OFDA’s agreement officer(s) determine the allowability and collect, as appropriate,
$766,490 in total questioned ineligible costs related to matters under review by the
Office of Inspector General’s Office of Investigations. Therefore, management decisions
have not been made on recommendations 2, 3, 4, and 5. However, discussions with the
Office of Investigations led us to conclude that action can now be taken on
recommendations 2, 3, 4, and 5 to determine the allowability and collect, as appropriate,
the questioned ineligible costs. Management decisions can occur once determinations
by the agreement officer(s) have been completed.
Recommendation 6. OFDA concurred with recommendation 6 and stated their
recognition of the need for improved data quality related to beneficiary counting and
reporting. As a result, development of step-by-step guidance for counting individual
beneficiaries is underway by OFDA with an anticipated dissemination during fiscal year
2010. Consequently, a management decision has been reached on recommendation 6.
Final action can occur once the improved guidance on counting beneficiaries is
completed and disseminated.
Recommendation 7. OFDA disagreed with the recommendation and considered the
recommendation as unnecessary that an immediate review of its portfolio of awards in
Iraq be completed to ensure that each award had an up-to-date designated agreement
officer’s technical representative (AOTR) because OFDA has a standard operating
procedure that requires all grants and cooperative agreements to have appropriate
AOTRs designated. Nevertheless, OFDA provided supporting documentation of AOTR



                                                                                      16
designation letters for all current grants and cooperative agreements in Iraq. On the
basis of our review of these documents and comparison with the current portfolio of
OFDA awards for Iraq, we consider that both a management decision and final action
have been taken to address the recommendation.

Recommendations 8–12. OFDA disagreed with the five recommendations that asked
OFDA to prepare action memorandums to the Director, Office of Acquisition and
Assistance (OAA), requesting ratification of $9,995,662 in costs billed under the five
grants specified in the recommendations.          The basis for disagreeing with the
recommendations was that a designated AOTR had approved the no-cost extensions
and that it was within the AOTR’s authority to do so. However, OFDA has yet to provide
support that the specific individuals who approved the no-cost extensions of the grants
were officially designated in writing as the AOTRs for the five grants. Without such
evidence, the individuals who authorized the extensions of the awards did not have the
authority do so; these actions must be ratified by the OAA Director. Therefore,
management decisions have not yet been reached for recommendations 8, 9, 10, 11,
and 12. Final action can be taken on the five recommendations once OFDA has
prepared the action memorandums for the OAA Director’s determination.




                                                                                    17
                                                                             APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG)/Iraq conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions, based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions.

The purpose of the audit was to determine whether USAID’s Office of Foreign Disaster
Assistance (OFDA) internally displaced persons and vulnerable population activities are
achieving their main goals to save lives, alleviate human suffering, and reduce the social
and economic impact of humanitarian emergencies. The audit covered OFDA activities
from October 1, 2006, through September 30, 2008, but we also took into account
activities subsequent to this period with respect to actions taken by OFDA to address
prior recommendations from OIG and contractor.

During the period under audit, OFDA’s activities were implemented by grants or
cooperative agreements to the following seven organizations: International Medical
Corps, International Organization for Migration, Mercy Corps, International Relief and
Development, Inc., Agency for Technical Cooperation and Development, the United
Nations Children’s Fund, and the United Nations Office for the Coordination of
Humanitarian Affairs.    The value of the awards to these organizations totaled
$190 million.

Our audit focused on 73 of 645 activities implemented by International Medical Corps,
International Relief and Development, and Mercy Corps. The value of the awards being
implemented by these three partners during fiscal years 2007 and 2008 totaled
$115 million. Their expenditures during this period totaled $51 million.

In planning and performing the audit, we gained an understanding of OFDA’s existing
management controls over its internally displaced persons activities. In addition, we
tested partner performance in meeting the obligations established in their performance
management plans and the reported results of their activities. Fieldwork was performed
from March 9 to August 10, 2009, at the USAID compound within the International Zone in
Baghdad, Iraq; at International Medical Corps office in Baghdad; and at the International
Relief and Development office in Erbil, Iraq. Fieldwork also included site visits to nine
water-related activities in Kirkuk, Iraq.

Methodology
To determine whether the program was achieving its intended goal, the audit team
initially interviewed pertinent OFDA staff at USAID/Iraq and USAID/Washington to gain
an understanding of the program and the reporting procedures and controls in place for
monitoring the program. We also interviewed officials at International Medical Corps,
International Relief and Development, and Mercy Corps.



                                                                                       18
                                                                               APPENDIX I

In answering the audit objective, the audit was limited to an overall assessment of
whether the program’s stated goal was being achieved with respect to the 73 tested
activities. This assessment was based on the audit team’s review and analysis of
documents on file with the implementing partners to determine whether (1) an activity
had been completed and (2) the reported number of beneficiaries was supported. These
documents included planning documents, procurement records, payment vouchers,
handover documents, completion reports, signatures or fingerprints of beneficiaries,
photos, and project evaluation reports. To assess the accuracy of beneficiary
calculations, we used a materiality threshold of 90 percent.

During our review of fingerprints used to document beneficiaries, many of the
fingerprints appeared to be the same. We elicited the assistance of a fingerprint expert
in Baghdad, who confirmed that the fingerprints came from a limited number of
individuals or different fingers from the same person.

The audit team also visited nine selected sites to perform a physical inspection and to
verify that the activity had been completed. During the visits, we interviewed local Iraqis
to solicit their views on the success of the activity.

Our sample of 73 of 645 activities was judgmentally selected from four sectors on the
basis of higher risk and higher funding levels. The audit sample included 22 income
generation activities, 21 water sanitation activities, 17 relief supply activities, and 13
health activities. The sample of activities cannot be statistically projected to the universe
of 645 activities.

As part of our initial work, the audit team examined prior OFDA-related audits performed
by OIG. In addition, we reviewed applicable guidance and policies, such as USAID’s
policy on assistance to internally displaced persons, OFDA guidelines on proposals and
reporting, and pertinent policies contained in USAID’s Automated Directives System.




                                                                                          19
                                                                              APPENDIX II



MANAGEMENT COMMENTS

March 12, 2010

MEMORANDUM

TO:            Lloyd J. Miller – Director, Office of Inspector General/Iraq (OIG)

FROM:          Carol Chan – Acting Director, Office of U.S. Foreign Disaster Assistance
               (OFDA) /s/

SUBJECT:       Audit of USAID’s Internally Displaced Persons Activities in Iraq
               (Report No. E-267-10-00x-P)

        We would like to thank your office for its flexibility and willingness to extend the
due date of this report on two occasions. Attached is our draft response to the subject
audit. This report attempts to address the 12 recommendations made by the OIG.

       To summarize:
       OFDA accepts the following recommendations:

      1 (implementation of a plan to provide improved performance monitoring and
       oversight)
      6 (develop guidance for standard accurate accounting of beneficiaries)

       OFDA rejects the following recommendations:

      7 (ensure each OFDA award has an up to date designated AOTR)
      8-12 (questionable approval and reimbursement of a number of costs billed during
       specific periods of these grants)

         To support OFDA’s position we are providing OIG with AOTR designation
letters and no-cost extension and/or modification letters signed by the designated
CTO/AOTR at the time the modifications were requested.

      As the issues related to recommendations 2-5 are still under investigation by the
OIG, OFDA has not provided a response at this time.

       We are ready to answer further questions related to this audit at your convenience.

Attachments:
      As stated




                                                                                         20
                                                                                                                                  APPENDIX II




      USAID/Iraq Responsibilities and Procedures for Technical Team Response to Evaluation Recommendations

      Evaluation is an important management tool, and in order for it to play its role, there needs to be careful consideration of evaluation
      recommendations as a basis for management decisions.

      All USAID/Iraq evaluations will have a Technical Team response. The response should start off with brief comments on the findings
      and utility of the report, setting the tone for the remainder of the response. The technical team should then address each
      recommendation using the following format:

      General Comments on the Report (s)


       Recommendation                       USAID Response                                               Action to be taken
                                            In your response, indicate whether
                                            you Accept, Partially Accept or         Action                       Timeline     Follow-Up/Status
                                            Reject the recommendation and
                                            provide a brief explanation

    OFDA Needs to Strengthen
    Monitoring of Partner
    Performance

1   We recommend that USAID’s Office        Accept
    of Foreign disaster Assistance
    establish and implement a plan for      Development of Guidelines for
    both OFDA and partner staff to          Unsolicited Proposals
    provide performance monitoring          In recognition of a need for improved
    and oversight for its awards in Iraq.   reporting and accountability toward
    Such a plan should include, among       improved oversight and program
    other actions, regular reviews of       learning, the USAID Office of U.S.
    partner reports, compliance with        Foreign Disaster Assistance
    award requirements, and random          (USAID/OFDA) developed Guidelines
    checks to ensure that implementing      for Unsolicited Proposals. This




                                                                                                                                                21
                                                                                                                            APPENDIX II




   Recommendation                   USAID Response                                                    Action to be taken
                                    In your response, indicate whether
                                    you Accept, Partially Accept or            Action                         Timeline   Follow-Up/Status
                                    Reject the recommendation and
                                    provide a brief explanation
partners have support for claimed   guidance, developed for
results.                            dissemination at the beginning of the
                                    2009 fiscal year, standardizes
                                    program reporting for OFDA-funded
                                                                               Standardize Program            Complete   Complete
                                    activities in the field with a standard
                                    list of reporting indicators. Additional   Reporting
                                    reporting guidance is currently being
                                    developed, which will include an
                                    indicator reference sheet for each of
                                    the standard reporting indicators, as
                                    well as further guidance and
                                    suggestions for data collection, data      Standard Indicator Reporting
                                                                                                              FY2010     Grants Working Group/
                                    quality improvement, and a quarterly                                                 Ongoing
                                    reporting format. A web-based on-line
                                    indicator reporting feature of the
                                    OFDA Abacus programming
                                    database is under development and
                                    should contribute significantly to         Develop Abacus                            Abacus Team/Ongoing
                                                                                                              FY2010
                                    improved reporting, access, and            Programming Database
                                    management of program indicator
                                    data and results.

                                    Reporting and Evaluation
                                    Requirements                                                                         Complete
                                                                                                              Complete
                                    OFDA agreements with its                   Reporting and Evaluation
                                    implementing partners binds the latter
                                    to financial reporting and performance
                                    monitoring and evaluation. There are
                                    obligatory requirements for quarterly
                                    and annual reports and requirements




                                                                                                                                      22
                                                                                                          APPENDIX II




Recommendation   USAID Response                                                      Action to be taken
                 In your response, indicate whether
                 you Accept, Partially Accept or          Action                           Timeline    Follow-Up/Status
                 Reject the recommendation and
                 provide a brief explanation
                 for informal updates on progress.
                 All OFDA partners are in compliance.

                 Project Specific Updates
                                                          Project Specific Updates         Complete    Complete
                 OFDA Iraq NGO partners
                 voluntarily submit bi-weekly or
                 monthly reports summarizing recent
                 activities. OFDA, in consultation with
                 NGO partners, introduced a new
                 reporting format in January 2010 to
                 ensure receipt of detailed, progress-
                 specific information for each project
                 under a partner's program. All OFDA
                 NGO partners submit these
                 reports each month using the new
                 format.

                 Performance Evaluation and               Complete contract agreement      Q3 FY2010   Finalize contract
                 Reporting for Results Management         with QED Group                               language and provide
                 (PERFORM)                                                                             transfer of funds
                 On September 30, 2009, USAID
                 Iraq and The QED Group, LLC
                 entered an agreement for a
                 monitoring and evaluation program
                 entitled "Performance Evaluation and
                 Reporting for Results Management
                 (PERFORM)." PERFORM includes m
                 onitoring and evaluation services for
                 OFDA and a scope of work is
                 being developed. Following partner-




                                                                                                                    23
                                                                                                                             APPENDIX II




       Recommendation                    USAID Response                                                 Action to be taken
                                         In your response, indicate whether
                                         you Accept, Partially Accept or        Action                        Timeline   Follow-Up/Status
                                         Reject the recommendation and
                                         provide a brief explanation
                                         specific program reviews, PERFORM
                                         will provide field monitoring and
                                         reporting and annual or end-of-grant
                                         evaluations.

                                         OFDA Staffing in Iraq                  Maintain a two person field   Ongoing    Complete
                                         OFDA Iraq has a Senior Humanitarian    configuration in Iraq
                                         Advisor and a Program Officer based
                                         in Baghdad. To ensure program
                                         integrity, they work with OFDA
                                         partners and U.N. officials, donors
                                         and other relevant actors. Though
                                         security restrictions can
                                         limit movements, they conduct
                                         field visits to monitor projects and
                                         understand humanitarian conditions
                                         and needs in Iraq.

2   We recommend that OFDA’s             No Response                            None                          Unknown    OFDA will wait for OIG
    agreement officer determine the                                                                                      guidance prior to taking
    allowability and collect, as         Activity is currently under                                                     further action.
    appropriate, the $46,980 in          investigation by the OIG’s Office of
    questioned ineligible costs billed   Investigations.
    by International Medical Corps for
    Implementation Plan No. 11 under
    Cooperative Agreement No DFD-A-
    00-05-00030-00

3   We recommend that OFDA’s             No Response                            None                          Unknown    OFDA will wait for OIG
    agreement officer determine the                                                                                      guidance prior to taking




                                                                                                                                       24
                                                                                                              APPENDIX II




       Recommendation                    USAID Response                                  Action to be taken
                                         In your response, indicate whether
                                         you Accept, Partially Accept or        Action         Timeline   Follow-Up/Status
                                         Reject the recommendation and
                                         provide a brief explanation
    allowability and collect, as         Activity is currently under                                      further action.
    appropriate, the $168,080 in         investigation by the OIG’s Office of
    questioned ineligible costs billed   Investigations.
    by Mercy Corps for Project Code
    DY/145 under Grant No. DFD-G-00-
    05-00027-00

4   We recommend that OFDA’s             No Response                            None           Unknown    OFDA will wait for OIG
    agreement officer determine the                                                                       guidance prior to taking
    allowability and collect, as         Activity is currently under                                      further action.
    appropriate, the $373,021 in         investigation by the OIG’s Office of
    questioned ineligible costs billed   Investigations.
    by Mercy Corps for Project Code
    DY/161 under Grant No. DFD-G-00-
    05-00027-00

5   We recommend that OFDA’s             No Response                            None           Unknown    OFDA will wait for OIG
    agreement officer determine the                                                                       guidance prior to taking
    allowability and collect, as         Activity is currently under                                      further action.
    appropriate, the $178,409 in         investigation by the OIG’s Office of
    questioned ineligible costs billed   Investigations.
    by Mercy Corps for Project Code
    DY/171 under Grant No. DFD-G-00-
    05-00027-00

    OFDA Needs to Provide Clear
    Guidance for Reporting to
    Beneficiaries




                                                                                                                            25
                                                                                                                            APPENDIX II




       Recommendation                  USAID Response                                                  Action to be taken
                                       In your response, indicate whether
                                       you Accept, Partially Accept or           Action                      Timeline   Follow-Up/Status
                                       Reject the recommendation and
                                       provide a brief explanation

6   We recommend that USAID’s Office   Accept                                    Continue development of     FY2010     Continue to coordinate
    of Foreign Disaster Assistance                                               guidance for standard                  this effort with OFDA’s
    provide clear guidance to its      OFDA has recognized a need for            accurate accounting of                 Technical Advisory
    implementers on how to count       improved data quality related to          beneficiaries                          Group (TAG)
    beneficiaries                      beneficiary counting and reporting. A
                                       step-by-step guidance for counting
                                       individual beneficiaries is currently
                                       under development, with anticipated
                                       dissemination to begin during the
                                       current fiscal year. The guidance
                                       provides checklists and a decision
                                       tree to guide implementing partners
                                       through the process of tabulating
                                       individual beneficiaries while avoiding
                                       double-counting. Additional steps are
                                       being taken to account for any
                                       overlap or double-counting across
                                       implementing partners within Iraq or
                                       particular regions of Iraq.
                                       A DRAFT copy of the guidance is
                                       available on request. It is anticipated
                                       that additional suggested monitoring
                                       guidance will be provided to
                                       implementing partners, as well as
                                       guidance offered in the course of
                                       ongoing field monitoring by regional
                                       and DC-based staff.

    Unauthorized Commitments




                                                                                                                                      26
                                                                                                                   APPENDIX II




       Recommendation                      USAID Response                                     Action to be taken
                                           In your response, indicate whether
                                           you Accept, Partially Accept or         Action           Timeline   Follow-Up/Status
                                           Reject the recommendation and
                                           provide a brief explanation
    Need to Be Ratified

7   We recommend that the USAID            Reject                                  Complete         Complete   Completed
    Office of Foreign Disaster
                                           This is now standard operating                                      AOTR Designation
    Assistance perform an immediate
                                           procedure for all OFDA grants and                                   Letters attached
    review of its portfolio of awards in
    Iraq and ensure that each award, as    cooperative agreements. All
    appropriate, has an up to date,        appropriate AOTR’s have been
    designated agreement officers          assigned to all Iraq grants and
    technical representative.              cooperative agreements at this time.

8   We recommend that the USAID            Reject                                  Complete         Complete   Completed
    Office of Foreign Disaster
                                           Section 1.2 of the Basic Award                                      No-cost extension and/or
    Assistance prepare an action
                                           (PERIOD OF AWARD) grants                                            modification letter
    memorandum to the Director, Office
                                           authority to the CTO/AOTR to                                        attached
    of Acquisition and Assistance,
    requesting the ratification of         acknowledge and/or approve certain
    $3,150,751 in costs billed by the      No-Cost Extensions (NCE’s). Thus,
    Agency for Technical Cooperation       since there was a designated
    and Development during the period      CTO/AOTR (Section 1.11(a) POST
    from June 30 to September 30,          AWARD AGREEMENT
    2008, under Grant No. DFD-G-00-05-     ADMINISTRATION), s/he was acting
    00106-00                               within the scope of his/her authority
                                           by acknowledging/approving the
                                           NCE’s. Hence, there are no
                                           unauthorized commitments and,
                                           accordingly, no need to seek the
                                           M/OAA Director's ratification.
                                           .




                                                                                                                            27
                                                                                                                    APPENDIX II




        Recommendation                      USAID Response                                     Action to be taken
                                            In your response, indicate whether
                                            you Accept, Partially Accept or         Action           Timeline   Follow-Up/Status
                                            Reject the recommendation and
                                            provide a brief explanation

9    We recommend that the USAID            Reject                                  Complete         Complete   Completed
     Office of Foreign Disaster
                                            Section 1.2 of the Basic Award                                      No-cost extension
     Assistance prepare an action
                                            (PERIOD OF AWARD) grants                                            and/modification letter
     memorandum to the Director, Office
                                            authority to the CTO/AOTR to                                        attached
     of Acquisition and Assistance,
     requesting the ratification of         acknowledge and/or approve certain
     $455,151 in costs billed by            No-Cost Extensions (NCE’s). Thus,
     International Medical Corps during     since there was a designated
     the period from March 31 to July 31,   CTO/AOTR (Section 1.11(a) POST
     2007, under Grant No. DFD-A-00-05-     AWARD AGREEMENT
     00030-00                               ADMINISTRATION), s/he was acting
                                            within the scope of his/her authority
                                            by acknowledging/approving the
                                            NCE’s. Hence, there are no
                                            unauthorized commitments and,
                                            accordingly, no need to seek the
                                            M/OAA Director's ratification.
10   We recommend that the USAID            Reject                                  Complete         Complete   Completed
     Office of Foreign Disaster
                                            Section 1.2 of the Basic Award                                      No-cost extension
     Assistance prepare an action
                                            (PERIOD OF AWARD) grants                                            and/modification letter
     memorandum to the Director, Office
                                            authority to the CTO/AOTR to                                        attached
     of Acquisition and Assistance,
     requesting the ratification of         acknowledge and/or approve certain
     $1,864,831 in costs billed by          No-Cost Extensions (NCE’s). Thus,
     International Medical Corps during     since there was a designated
     the period from June 30 to             CTO/AOTR (Section 1.11(a) POST
     September 30, 2008, under Grant        AWARD AGREEMENT
     No. DFD-G-00-05-00026-00               ADMINISTRATION), s/he was acting
                                            within the scope of his/her authority
                                            by acknowledging/approving the




                                                                                                                              28
                                                                                                                   APPENDIX II




        Recommendation                     USAID Response                                     Action to be taken
                                           In your response, indicate whether
                                           you Accept, Partially Accept or         Action           Timeline   Follow-Up/Status
                                           Reject the recommendation and
                                           provide a brief explanation
                                           NCE’s. Hence, there are no
                                           unauthorized commitments and,
                                           accordingly, no need to seek the
                                           M/OAA Director's ratification.
                                           .
11   We recommend that the USAID           Reject                                  Complete         Complete   Completed
     Office of Foreign Disaster
                                           Section 1.2 of the Basic Award                                      No-cost extension
     Assistance prepare an action
                                           (PERIOD OF AWARD) grants                                            and/modification letter
     memorandum to the Director, Office
                                           authority to the CTO/AOTR to                                        attached
     of Acquisition and Assistance,
     requesting the ratification of        acknowledge and/or approve certain
     $2,219,896 in costs billed by         No-Cost Extensions (NCE’s). Thus,
     International Relief and              since there was a designated
     Development, Inc., during the         CTO/AOTR (Section 1.11(a) POST
     period from June 30 to September      AWARD AGREEMENT
     30, 2008, under Grant No. DFD-G-      ADMINISTRATION), s/he was acting
     00-05-00028-00                        within the scope of his/her authority
                                           by acknowledging/approving the
                                           NCE’s. Hence, there are no
                                           unauthorized commitments and,
                                           accordingly, no need to seek the
                                           M/OAA Director's ratification.
                                           .
12   We recommend that the USAID           Reject                                  Complete         Complete   Completed
     Office of Foreign Disaster
                                           Section 1.2 of the Basic Award                                      No-cost extension
     Assistance prepare an action
                                           (PERIOD OF AWARD) grants                                            and/modification letter
     memorandum to the Director, Office
                                           authority to the CTO/AOTR to                                        attached
     of Acquisition and Assistance,
     requesting the ratification of        acknowledge and/or approve certain
     $2,305,033 in costs billed by Mercy   No-Cost Extensions (NCE’s). Thus,




                                                                                                                             29
                                                                                                          APPENDIX II




   Recommendation                   USAID Response                                   Action to be taken
                                    In your response, indicate whether
                                    you Accept, Partially Accept or         Action         Timeline   Follow-Up/Status
                                    Reject the recommendation and
                                    provide a brief explanation
Corps during the period from June   since there was a designated
30 to September 30, 2008, under     CTO/AOTR (Section 1.11(a) POST
Grant No. DFD-G-00-05-00027-00.     AWARD AGREEMENT
                                    ADMINISTRATION), s/he was acting
                                    within the scope of his/her authority
                                    by acknowledging/approving the
                                    NCE’s. Hence, there are no
                                    unauthorized commitments and,
                                    accordingly, no need to seek the
                                    M/OAA Director's ratification.
                                    .




                                                                                                                  30
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue NW
          Washington, DC 20523
            Tel.: 202–712–1150
            Fax: 202–216–3047
            www.usaid.gov/oig
